<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY PROPOSED INFORMATION ANALYSIS BUDGET FOR FISCAL YEAR 2005</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    DEPARTMENT OF HOMELAND SECURITY
                     PROPOSED INFORMATION ANALYSIS
                      BUDGET FOR FISCAL YEAR 2005

=======================================================================

                                HEARING

                                 of the

                      SUBCOMMITTEE ON INTELLIGENCE
                           AND COUNTERRORISM

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2004

                               __________

                           Serial No. 108-40

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
22-641                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Intelligence and Counterterrorism

                     Jim Gibbons, Nevada, Chairman

John Sweeney, New York, Vice         Karen McCarthy, Missouri
Chairman                             Edward J. Markey, Massachusetts
Jennifer Dunn, Washington            Norman D. Dicks, Washington
C.W. Bill Young, Florida             Barney Frank, Massachusetts
Harold Rogers, Kentucky              Jane Harman, California
Christopher Shays, Connecticut       Nita M. Lowey, New York
Lamar Smith, Texas                   Robert E. Andrews, New Jersey
Porter Goss, Florida                 Eleanor Holmes Norton, District of 
Peter King, New York                 Columbia
John Linder, Georgia                 James R. Langevin, Rhode Island
John Shadegg, Arizona                Kendrick B. Meek, Florida
Mac Thornberry, Texas                Jim Turner, Texas, Ex Officio
Christopher Cox, California, Ex 
Officio

                                  (II)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada, and Chairman, Subcommittee on Intelligence and 
  Counterrorism..................................................     1
The Honorable Karen McCarthy, a Representative in Congress From 
  the State of Missouri, Ranking Member, Subcommittee on 
  Intelligence and Counterrorism
  Oral Statement.................................................     9
  Prepared Statement.............................................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................    15
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security
  Oral Statement.................................................    13
  Prepared Statement.............................................     3
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    17
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................    11
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    21
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................    25
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    27
The Honorable Christopher Shays, a Representative in Congress 
  From the State Connecticut.....................................    19
The Honorable John E. Sweeney, a Representative in Congress From 
  the State of New York..........................................    23

                                WITNESS

General Patrick Hughes, Assistant Secretary for Information 
  Analysis,
  Department of Homeland Security
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                                APPENDIX
                   Material Submitted for the Record

Questions from The Honorable Jim Turner for General Patrick 
  Hughes.........................................................    33

 
                       THE DEPARTMENT OF HOMELAND
                     SECURITY PROPOSED INFORMATION
                  ANALYSIS BUDGET FOR FISCAL YEAR 2005

                              ----------                              


                       Wednesday, March 10, 2004

                          House of Representatives,
 Subcommittee on Intelligence and Counterterrorism,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:55 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Jim Gibbons 
[chairman of the subcommittee] presiding.
    Present: Representatives Gibbons, Sweeney, Dunn, Shays, 
King, Thornberry, Cox (ex officio), McCarthy, Markey, (Del.) 
Norton, Meek, and Turner (ex officio).
    Also Present: Delegate Christensen.
    Mr. Gibbons. The Subcommittee on Intelligence and 
Counterterrorism will come to order. The subcommittee is 
meeting today to hear testimony on the Department of Homeland 
Security's proposed information analysis budget for fiscal year 
2005.
    General Patrick Hughes, Assistant Secretary For Information 
Analysis, is with us today. Thank you, General, for being here. 
We look forward to your testimony. I ask unanimous consent that 
members' statements be included in the hearing record and 
encourage members of the subcommittee to submit their opening 
statements for the record.
    I also ask unanimous consent that Ms. Christensen, who is 
not a member of this subcommittee, be allowed to sit and ask 
questions. Without objection so ordered.
    Pursuant to the committee's rules, any member waiving their 
opening statement will have an additional 3 minutes for 
questions. The members of the committee may also have some 
additional questions, and we will ask you to respond to these 
in writing. The hearing record will be held open for 10 days.
    I want also to let members know that we plan to proceed in 
open session this morning for taking testimony and questioning, 
and it is further my hope that we will be able to explore 
issues of concern without the need to close the hearing to the 
public.
    However, if it becomes necessary to discuss classified 
information, we will at an appropriate time take all necessary 
steps to close the hearing and proceed in executive session.
    I now recognize myself for an opening statement.
    General Hughes, once again, thank you for being here today.
    Your role in the Department is critical for the success of 
our homeland security efforts over the last few years. We have 
heard a lot about connecting the dots so that, we are sure that 
all of the intelligence information that we process is brought 
together in one big picture.
    The Office of Information Analysis has a difficult task of 
ensuring that relevant information about terrorist threats to 
the homeland gets where it needs to go and gets there quickly. 
Without intelligence, and the talented men and women who make 
intelligence their business, we are blind to the intentions of 
our enemies. However, knowing your enemy is simply not enough. 
he information that we process must be brought together, 
analyzed and disseminated to the people on the front lines 
protecting our Nation from harm.
    Because protection is so highly dependent on intelligence, 
I find it appropriate that in your budget submission it is 
difficult to determine where information analysis ends and 
infrastructure protection begins.
    While this level of interdependence is appropriate, I hope 
you will be able to draw some lines for us here today so that 
we may more clearly see how your office fits into the big 
picture.
    I look forward to your testimony and to hearing how we can 
help you accomplish your goals for the coming year.
    When Ms. McCarthy arrives, we will offer her an opportunity 
for an opening statement. Until that point in time, is there 
any other member who wishes to make an opening statement? 
Seeing none.

Prepared Statement of the Honorable Karen McCarthy, a Representative in 
 Congress From the State of Missouri, and Ranking Member, Subcommittee 
                  on Intelligence and Counterterrorism

    Thank you Mr. Chairman, thank you Assistant Secretary Hughes for 
taking us through the Fiscal Year 2005 budget submission for the 
Information Analysis and Infrastructure Protection Directorate Budget 
(IAIP).
    Last week, Under Secretary Libutti testified before a joint hearing 
of the Subcommittee on Intelligence and Counterterrorism and the 
Subcommittee on Infrastructure Protection and Border Security. I raised 
a number of issues with him that I would also like you to address 
today, hopefully in more detail, concerning the Department's real-time 
ability to assess threats to the homeland. This morning, we are 
interested in hearing about ongoing efforts to improve the depth and 
breadth of intelligence analysis at the Directorate, as well as the 
connectivity among all key units across government doing similar 
analysis.
    Where are the existing gaps and weaknesses and what can our 
Committee do to help your office solve these problems rapidly in 
authorizing legislation that we expect to pass and enact later in the 
year? Also, what is the time frame within the coming fiscal year for 
showing results? Hopefully you can cover all this ground this morning.
    Mr. Secretary, it would also be my hope that you will cast light on 
what is being done to speed the issuing of information warnings and 
advisories to state and local officials, and to improve the quality of 
those communications so that businesses, schools, churches and families 
across America have the best guidance in hand from the federal 
government when the threat level rises.
    Secretary Ridge's announcement on March 1 of a new initiative, the 
Homeland Security Information Network, heads us in the right direction 
by creating a comprehensive, computer based counterterrorism 
communications system to all 50 states and 50 major urban centers. The 
Department has the right idea to strengthen the quality and flow of 
threat information. Now we'll need to assure that there is sufficient 
follow through.
    If there is one universal cry from constituent groups, it is the 
need for DHS to provide timely and actionable information sharing 
between the federal agencies and state and local agencies, who look to 
the Department for reliable and accurate information concerning 
terrorist threats in local communities all across America.
    Tim Daniel, the Director of the State of Missouri Office of 
Homeland Security, tells me that information sharing needs to go both 
ways. When Missouri state and local officials have information 
concerning possible terrorist activities, they need to know not only 
who to contact at the federal level, but also that state information 
will be considered in a timely way. The feedback loop is still under 
construction. Mr. Secretary, I would welcome your wisdom on how best to 
complete this information loop.
    Since we're primarily focused today on the dissecting the 
Directorate budget, it would be helpful to have a clearer understanding 
of how many dollars are dedicated toward information sharing with 
localities and communities. The Homeland Security Operations Center is 
receiving a big plus up of funds, $10 million, in part to undergird the 
``implementation of national systems for information sharing'' and I 
would appreciate your sharing with the committee a Directorate-wide 
breakdown on how funds are actually expended for information sharing 
purposes.
    It would be useful to hear a broader explanation, too, of where and 
how time is lost in the process of forwarding important real-time 
intelligence threat information to first responders. The First 
Responders in the Fifth District of Missouri and all around the U.S. 
need timely and actionable information from the federal government now. 
Mr. Secretary, please share your plans for enhancing communication at 
all levels and working to provide our local communities with the 
resources they need to respond to emergency situations. I hope you will 
provide more information on this topic so our Committee has a better 
sense of how to fix this nationwide dilemma.
    A separate policy matter slow to develop involves IAIP completing a 
comprehensive threat and vulnerability assessment to guide spending 
priorities. In releasing our one year anniversary report last week, the 
Committee emphasized the need to have this blueprint in place, 
regardless of the cost, by October 1, 2004, and I'd simply like to 
reiterate that point with our distinguished panelists. Mr. Secretary, 
how realistic is our goal?
    Let me close by saying that I have a deep appreciation I have for 
the work you are doing. Obtaining usable intelligence in order to 
protect the homeland is a mammoth responsibility given the many 
different avenues that exist for attacking our infrastructure. We are 
supportive of your intentions, efforts and long-term goals, and will 
continue, in a bipartisan way, to be a good faith partner in helping 
you close the security gaps facing our nation.
    Thank you.

  Prepared Statement of the Honorable Jim Turner, a Representative in 
                    Congress From the State of Texas

    Good morning, General Hughes.
    We are pleased to have you with us today. Your mission of 
identifying, assessing and mapping threats to the homeland is crucial, 
and we thank you for agreeing to lay aside the comforts of semi-retired 
life, after 37 years of distinguished military service, to serve our 
country once again.
    We had a good give and take with your boss last week, General 
Libutti. Today we would like to pick right up with you and talk about 
the relevance and effectiveness of the Directorate's intelligence 
analysis given the existence of the Terrorist Threat Integration Center 
and other units doing similar work. The Directorate has faced criticism 
from Congress, the Century Foundation, the Heritage Foundation and 
others that it is just a junior partner in the analysis process given 
the emphasis and focus on TTIC, the CIA's existing Directorate of 
Intelligence and the military intelligence agencies. We would like to 
hear you clarify the roles, responsibilities and authorities of your 
unit and how it differs from the others.
    In addition, two and one half years after 9/11, it is a good time 
to take stock of the government's efforts to do a better job of 
``connecting the dots'' in our intelligence analysis. We have seen the 
rapid creation of numerous new organizations--TTIC, IAIP, DoD's 
Northern Command, the FBI's Terrorist Tracking Task Force--to name a 
few.
    To avoid repeating bureaucratic mistakes of the past, though, there 
ought to be a clear delineation of what your office is doing and the 
formal analytic interplay between IAIP, TTIC and other related 
organizations. The left hand needs to know what the right hand is 
doing, and that begins with a formal, clear, understandable structure 
to government-wide intelligence analysis. The plan ought to be in 
writing so there is a common understanding and so organizations can be 
held accountable. Right now we simply don't have that in place.
    Now let me offer some constructive criticism in a number of other 
areas.
    First, I am concerned that the practice of not sharing information 
within the Intelligence Community continues to be a problem. For 
example, 1 would be interested to know whether your office receives 
intelligence from DoD Special Access Programs relating to the terrorist 
threat? And with this new, hard push underway to locate Osama Bin 
Laden, I can only assume that sensitive covert operations are part of 
the effort. Are you regularly provided intelligence information 
attained through worldwide covert operations? In short we need 
assurance that you have access to absolutely all information the U.S. 
government has related to terrorism. If you have any doubt about that, 
we need to hear about it today.
    Second, an important part of IAIP's mission is to receive the same 
intelligence data as TTIC and other organizations but to review and 
analyze it in a different way to ensure that we are thinking ``outside 
of the box''. Al-Qa`eda and others are considering creative and new 
means for attacking us, so IAIP is responsible for doing that cutting 
edge analysis that keeps us one step ahead of Osama bin Laden.
    My questions is how vigorously is the Department pursuing this 
competitive intelligence analysis? If you could note some concrete 
examples of how your analysts have seen things differently than others 
in the Intelligence Community, that would assure us that this work is 
underway.
    And on the same subject a Department organizational chart indicates 
that the JAIP Under Secretary's Chief of Staff is in charge of the 
Competitive Analysis and Evaluation Office. I would have thought that 
your office, General Hughes, particularly since you're the individual 
with the most senior intelligence experience in the Directorate, 
handled these matters. So I'm concerned that poor organization with the 
Directorate could be hampering this critical function.
    Third, in closed session we'd appreciate hearing your thoughts on 
the extent and effectiveness of Al-Qa`eda operatives working inside the 
United States. We know they're actively recruiting individuals of non 
Middle Eastern extraction to blend into U.S. crowds. What about their 
logistics, financing, training, and attack planning--how boldly are 
they moving ahead?
    Finally, let me comment about your responsibility to map threats 
against our vulnerabilities. Part of the Directorate's mission, as you 
know, is to identify threats as they relate to vital U.S. 
infrastructure, sites and potential targets. But General Libutti 
indicated last week that the Directorate is some time away from 
completing a national risk assessment. Since the vulnerabilities have 
not been determined, then it obviously prevents you and others from 
mapping threats against those key targets. I would submit that we have 
a long way to go in fulfilling this basic mission and ought to pick up 
the pace to complete it.
    Let me end by saying thank you, again, General, for appearing 
before the Committee today. I look forward to hearing your testimony on 
these issues and fully recognize that you are working hard to defend 
and secure our homeland. We deeply appreciate your service and want to 
help you succeed in your mission in any way that we can.

    All right. We will turn now to General Hughes. I want to 
thank you again for being here today, and I look forward to 
your testimony. And the floor is now yours.

   STATEMENT OF LIEUTENANT GENERAL PATRICK HUGHES, ASSISTANT 
  SECRETARY FOR INFORMATION ANALYSIS, DEPARTMENT OF HOMELAND 
                            SECURITY

     General Hughes. Well, thank you. Good morning, Mr.
    Chairman and members of the committee. I would like to read 
just a very brief summary of my statement for the record and 
for your knowledge and then turn over to the remainder of the 
time to your questions.
    I am privileged to appear before you today to discuss the 
role of the Office of Information Analysis within the 
Information Analysis and Infrastructure Protection Directorate 
of the Department of Homeland Security as well as the IA effort 
at intelligence coordination and information sharing. IAIP, and 
specifically IA, are moving forward in our statutory 
responsibilities, which include providing the full range of 
intelligence support to senior Department of Homeland Security 
leadership and component organizations and to State, local, 
tribal and private sector respondents; mapping terrorist 
threats to the homeland against assessed vulnerabilities to 
drive our efforts to protect against terrorist attack; 
conducting independent analysis and assessments; assessing the 
vulnerabilities of key resources, and critical infrastructure; 
merging relevant analyses and vulnerability assessments to 
identify priorities for protective, defensive and supportive 
measures; partnering with the Intelligence Community, notably 
the Terrorist Threat Integration Center, law enforcement 
agencies, notably the Federal Bureau of Investigation and 
State, local and tribal partners and the private sector, as 
well as all of DHS's components to manage the collection and 
processing of information involving threats to the homeland; 
and finally disseminating time sensitive warnings, alerts and 
advisories.
    I have been the Assistant Secretary of Information Analysis 
now for less than 4 months. We have accomplished much in a 
short period of time, and we continue to press forward to 
strengthen this vital office in our ability to support the 
overall Department of Homeland Security mission to secure our 
homeland.
    As I aim for this, we will achieve robust connectivity to 
all respondents. Indeed we have robust connectivity now. We 
will develop a world class information technology support 
system for the work of intelligence. We will bring on fully 
trained and cleared staff that will form direct relationships 
with intelligence persons at the State and local, tribal, major 
city, private sector levels, and with our partners in the 
Intelligence Community, and we will develop a full capability 
to engage in all source fusion and production.
    We are and will continue to be a full partner in the U.S. 
Intelligence Community. Together we will help you and others in 
the government to protect the people of this Nation.
    Thank you very much for your time and, Ms. McCarthy, it is 
nice to see you this morning, too.
    [The statement of General Hughes follows:]

   Statement of The Honorable Patrick M. Hughes, Assistant Secretary 
    Information Analysis and Infrastructure Protection Directorate, 
                    Department of Homeland Security

    Good morning Mr. Chairman, Representative McCarthy, and 
distinguished members of the Committee. I am privileged to appear 
before you today to discuss the role of the Office of Information 
Analysis (IA), within the Information Analysis and Infrastructure 
Protection Directorate (IAIP) of the Department of Homeland Security 
(DHS), as well as IA's intelligence, coordination, and information 
sharing efforts to date.
    Through the Homeland Security Act of 2002, the Information Analysis 
and Infrastructure Protection Directorate, and consequently, the Office 
of Information Analysis, is charged with ``integrating relevant 
information, intelligence analyses, and vulnerability assessments 
(whether such information, analyses, or assessments are provided or 
produced by the Department or others) to identify protective priorities 
and support protective measures by the Department, by other executive 
agencies, by State and local government personnel, agencies, and 
authorities, by the private sector, and by other entities.''
    The philosophical underpinning of IA as an integral part of the 
IAIP Under-Secretariat of DHS is to provide the connectivity, the 
integration, the communication, the coordination, the collaboration, 
and the professional intelligence work necessary to accomplish the 
missions of, and the products and capability necessary for the 
customers and the leadership of DHS. Simply put, we perform the 
intelligence work of Department of Homeland Security.
    IAIP is moving forward in carrying out our statutory 
responsibilities which include:
        <bullet> Providing the full range of intelligence support to 
        senior DHS leadership and component organizations and to state 
        and local and private sector respondents.
        <bullet> Mapping terrorist threats to the homeland against 
        assessed vulnerabilities to drive our efforts to protect 
        against terrorist attacks
        <bullet> Conducting independent analysis and assessments of 
        terrorist threats, including competitive analysis, tailored 
        analysis, and ``red teaming''
        <bullet> Assessing the vulnerabilities of key resources and 
        critical infrastructure of the United States
        <bullet> Merging the relevant analyses and vulnerability 
        assessments to identify priorities for protective and support 
        measures by the Department, other government agencies, and the 
        private sector
        <bullet> Partnering with the intelligence community, TTIC, law 
        enforcement agencies, state and local partners, and the private 
        sector, as well as DHS' components to manage the collection and 
        processing of information involving threats to the Homeland 
        into usable, comprehensive, and actionable information.
        <bullet> Disseminating time sensitive warnings, alerts and 
        advisories to federal, state, local governments and private 
        sector infrastructure owners and operators
    It is the mandate to independently analyze, coordinate, and 
disseminate the entire spectrum of threat information affecting the 
homeland that makes IA unique among its Intelligence Community 
partners. The analysts within Information Analysis are talented 
individuals who draw on intelligence from other components within DHS, 
IA's fellow Intelligence Community members, the Terrorist Threat 
Integration Center (TTIC), and federal, state and local law enforcement 
and private sector entities. The comprehensive threat picture produced 
is coordinated with the vulnerability assessment and consequence 
predictions identified by the Infrastructure Protection half of the 
IAIP Directorate.
    The Office of Information Analysis is also unique in its ability to 
communicate timely and valuable threat products to state and local 
officials, federal sector specific agencies (as indicated in HSPD-7), 
and the private sector as is appropriate. The relationship IA and 
indeed the entire Department of Homeland Security has with these 
contacts results in the IAIP Directorate being in the position to 
effectively manage information requirements from the state and local 
governments and private sector entities that are vital to protecting 
the homeland. DHS will continue to work in close communication with 
these officials, as well as with the other organizations it receives 
inputs from, to maintain the effective relationships that have been 
established.
    IA is the heart of the intelligence effort at DHS. It is 
responsible for accessing and analyzing the entire array of 
intelligence relating to threats against the homeland, and making that 
information useful to those first responders, state and local 
governments, and private sector. As such, IA provides the full-range of 
intelligence support to the Secretary, DHS leadership, the 
Undersecretary for IAIP, and DHS components. Additionally, IA ensures 
that best intelligence information informs the administration of the 
Homeland Security Advisory System.
    Central to the success of the DHS mission is the close working 
relationship among components, the Office of Information Analysis 
(``IA'') and the Office of Infrastructure Protection (``IP''), and the 
Homeland Security Operations Center (HSOC), to ensure that threat 
information and situational awareness are correlated with critical 
infrastructure vulnerabilities and protective programs. Together, the 
three offices provide real time monitoring of threat information and 
critical infrastructure to support the Department of Homeland 
Security's overall mission. This permits us to immediately respond to 
and monitor emerging potential threat information and events, and to 
take issues or information for more detailed analysis and 
recommendations for preventive and protective measures. The integration 
of information access and analysis on the one hand, and vulnerabilities 
analysis and protective measures on the other, is the fundamental 
mission of the IAIP Directorate.
IA and TTIC
    The Office of Information Analysis and the Department of Homeland 
Security are fully committed to the mission driving the Terrorist 
Threat Integration Center. From a personal standpoint, I believe both 
organizations are fulfilling their missions and enriching both each 
other and the wider Intelligence Community. This opinion is backed by 
the tremendous track record of success TTIC has in supporting the 
Department of Homeland Security and its needs. As partners, IA and TTIC 
spend much time communicating, both through the DHS representatives 
located at TTIC and through direct communication of leadership. 
Personally, my relationship with TTIC Director John Brennan could not 
be better. At present, we talk at least daily and as specific threats 
pertinent to the homeland arise. The close professional associations 
that have been forged between the two offices will allow both 
organizations to work on complimenting each other in the best interest 
of the nation's security. For example, IA is responsible for 
translating the analysis done at the TTIC into actionable data for law 
enforcement officials.
IA and TSC
    The Office of Information Analysis has a similarly productive 
relationship with the Terrorist Screening Center. While both perform 
duties that result in information being passed to local first 
responders and state and local officials, both entities have separate 
missions. IA provides the full spectrum of information support 
necessary for the operation of the Department of Homeland Security and 
for the benefit of Federal, State, Local, and Private Sector officials 
throughout the United States, to secure the homeland, defend the 
citizenry and protect our critical infrastructure. In contrast, the TSC 
is in the process of developing a fully integrated watch list database 
which will provide immediate responses to federal border-screening and 
law-enforcement authorities to identify suspected terrorists trying to 
enter or operate within the United States.
    Just as TTIC plays a vital role in supplying its federal partners 
with the broad threat picture, the TSC has quickly become an essential 
resource for local law enforcement, its federal government 
contributors, and other users. Already, over 1,000 calls have been made 
to the center, with over 500 positive identity matches. Through the 
matching and cross-referencing of lists, the TSC is allowing those 
first responders on the front lines of the fight against terrorism to 
access the information they need to identify and detain suspicious 
individuals.
    DHS, IAIP, and especially IA will continue to work with the TSC to 
coordinate information sharing efforts and to establish requirements 
for accessing information. IA and the TSC will grow together in their 
effort to serve the people and guardians of this nation.
    In Conclusion
    I have been the Assistant Secretary of Information Analysis now for 
less than four months. Building up the IA office, increasing our 
information capabilities, and coordinating information sharing across 
the entire federal government has been a monumental task. And, while we 
have accomplished much in a short period of time, we continue to press 
forward to strengthen this vital office and our ability to support the 
overall DHS mission of securing our homeland. In order for the Office 
of Information Analysis to accomplish its unique mission, we need the 
right organizational structure, qualified and cleared personnel, 
resources, and technical capabilities.
    As IA matures, we will complete a robust connectivity to all 
respondents. We will develop a world-class IT support system for the 
work of intelligence. We will bring on a fully trained and cleared 
staff that will form direct relationships with intelligence persons at 
the State and Local, Tribal, Major City, and Private Sector levels. We 
will develop full capability to engage in all-source fusion and 
production. We are and will continue to be a full partner in the 
Intelligence Community. Together, we will protect the people of this 
nation.

    Mr. Gibbons. Thank you very much, General Hughes. We 
appreciate the information that you provided us. It is very 
helpful. And I want to remind the members of the panel again we 
limit our questions to 5 minutes, unless you have had an 
opportunity to make an opening statement, at which point you, 
if you have intended to put that in the record, then we will 
make it an 8-minute questioning period.
    So let me recognize myself for the first 5 minutes. General 
there is always this question in everybody's mind about 
connecting the dots, but the real question is not so much 
connecting the dots as it is collecting the dots.
    We have to have a robust Intelligence Community, a robust 
intelligence capability in order to get enough dots to be able 
to connect them so that we know we are looking at the right 
picture.
    As I always say, if you have got only four dots you can 
make four dots look like anything you want. But if you have 24 
dots that makes a big difference in the picture you are looking 
at. How do you know you are getting everything you need in your 
office in the way of information from the Intelligence 
Community so that you are able to do your job?
    And let me ask, is there a need for an information 
technology system that automatically shares intelligence or 
will that add some potential to overload, say, the DHS analysts 
that you have?
    General Hughes. The first part of the question, sir, I 
think is a very interesting issue for me, because I am living 
through that part of the process now of determining whether I 
do get everything that is available.
    My view to the answer is yes, I do, although, sometimes I 
have to work hard to get it. It would be better, and I hope to 
achieve this goal to have it come to me somewhat automatically, 
so that I don't have to reach out quite as much or to intercede 
on occasion and gain information.
    But I would say that right now my direct answer to your 
question is that I am fully engaged, involved, and informed in 
the U.S. Intelligence Community, to include with the Central 
Intelligence Agency, some of their most sensitive information 
and operations, somewhat less so with the Federal Bureau of 
Investigation, somewhat less so with the Department of Defense 
and others.
    But to be honest, that is probably the evolving form of 
this arrangement; in my view, the FBI and the TTIC as my prime 
two conduits for information, and then many others. Looking at 
the--away from the Federal family to the State, local, major 
city, tribal and private sectors, there are shades of gray and 
green there. Depends on the place and the connectivity that 
they have and the circumstances they find themselves in.
    But especially in the major cities, the interaction is 
fairly good. When there is a reason for that interaction, my 
goal is to make that interaction rather autonomous and 
continuous. We have not yet achieved that connectivity. The 
interaction there isn't present for that yet, but I hope it 
will be soon, and the initiative by the Department to put in 
place an interactive system of communications and connectivity 
is part of that effort.
    Mr. Gibbons. Okay. I didn't mean to interrupt you.
    General Hughes. I was going to say with regard to the last 
part of the question it is my goal, and it is the Department's 
goal, to make this autonomous, to make it somewhat automatic, 
although we still want a human to make judgments about the 
information and whether or not it is sending the information or 
receiving the information. We must have human beings in this 
loop to make good judgments. So I am pressing for and hope to 
achieve within this year a very large degree of autonomy and 
automatic delivery and receipt of information. But I would like 
to emphasize that we want to make sure we exercise deliberate 
judgment by human beings at appropriate points along the way, 
especially at points that do not impede the flow of 
information, but actually assist in placing the information in 
context.
    Mr. Gibbons. Thank you, General. Let me ask in the very 
brief time remaining, I know that DHS is working with both 
State leaders and DHS personnel in identifying and getting 
proper clearances for handling classified information. But how 
is DHS working with other agencies to identify those other 
people who may need access to this information in order to 
identify a sharing mechanism capability and assure that they 
have the proper clearances?
    General Hughes. In the Federal family that does not seem to 
be a problem. By the person's specific positions with specific 
responsibilities, they are fairly clear, and I don't view that 
as an issue. Outside of the Federal family, at the State, 
local, through private, that is an issue, and we have to come 
to grips with it. We are requesting that persons who do not 
have security clearances get them at the Secret level, so that 
they are authorized under U.S. Federal policy and law to be 
allowed to have U.S. Federal Government information to at least 
the Secret level.
    In some cases there is a fairly robust capability for that, 
and others there is less capability. So we have to proceed as 
rapidly as we can to build the capability out in the State 
through local, and to some perhaps lesser degree in the private 
sector we have to build that capability in.
    Mr. Gibbons. Thank you very much, General. My time has 
expired. I turn now to my colleague, the gentlelady from 
Missouri, Ms. McCarthy, who has agreed to enter her opening 
statement in the record. It will be offered. She has 8 minutes 
for opening questions. Thank you.
    Ms. McCarthy. I thank you, Mr. Chairman, and Mr. Secretary, 
it is a delight to have you with us today. I appreciate very 
much your testimony that you shared, particularly the bullets 
on partnering with State and local partners and private sectors 
so that the message, the material is usable, comprehensive and 
actionable information.
    The time sensitivity of this is still problematic out in 
the heart of America with some of our State and local 
responders, and also a concern about closing the information 
loop to see that when State and local responders send word up 
to the agency at the Federal level about some time sensitive 
information they have, whether or not it is acted upon in--that 
the information loop doesn't seem to be quite complete.
    Although the budget is recommending $10 million more to 
undergird the implementation of these national systems for 
information sharing, could you be a little more specific with 
us today about your vision of how best to make all of that 
information come together and complete the loop so it is 
actually a very effective system as you envision it?
    General Hughes. Of course. We are trying to use the--any 
preexisting structure that already exists for the passage of 
classified information, and right now out to the State and 
local and other respondents away from the Federal family the 
prime conduit is the JTTF structure, operated by the FBI, which 
terminates in the State and major city level. And we do pass 
information via that conduit. We also pass it over secure 
telephones. We have an effort underway, and it is largely 
finished, to provide STU, STE, secure telephone capability out 
to at least the State and major city homeland security 
providers. And we also have similar capability, although we are 
not sponsoring much of it, it already exists in the private 
sector. So right now, today, I can get on the telephone to all 
of the 50 States, secure, and talk to them about information, 
and I have done that in a number of cases.
    I can also pass classified information via the JTTF 
connection system, or in some cases we have used a preexisting 
military system where there is a coincidence between the 
National Guard office or some military office that has secure 
communications.
    Our intent, our hope, and my vision, is to put in place a 
system which is actually called JRIES. It is really--a name is 
not really that important. The idea here is to put in place a 
Secret level connectivity to the State and major city to begin 
with, and then follow on with a broader fielding later to the 
State and major city homeland security advisers, a capability 
to communicate with them directly that is controlled by and 
supported by the Department of Homeland Security, yet would be 
in parallel with preexisting law enforcement connectivity and 
preexisting other Federal Government connectivity.
    It is an issue, I believe, to manage that properly, and we 
have to manage that here at the Federal Government level by 
making sure that we don't unnecessarily duplicate or 
unnecessarily be redundant or unnecessarily flood the system 
with information.
    Back to Chairman Gibbon's question here, we don't want to 
overload not only the Department of Homeland Security, but we 
certainly don't want to overload the responders out at the 
State and local, major city and private sector and tribal 
levels. So we have a management responsibility that goes along 
with this that is not part of the technical component 
necessarily, but it is probably more important in my view.
    The last thing that I would like to tell you is that the 
vision that I have to be able to do this, and that the 
Department has, indeed is on the way to fruition. We have 
rolled out the information system to produce a Secret level 
connectivity, but we are only fielding it now at the 
unclassified level. We hope to encipher it later on and make it 
Secret.
    Ms. McCarthy. If I might, General, thank you for that 
information. It is heartening to those of us concerned about 
our communities out there where we know that they are 
partnering and they are working together. But I am not sure 
they always are confident that they know what to do.
    Prior to 9/11, for example, in my community there were a 
lot of individuals, immigrants wanting to learn how to fly crop 
dusters. In retrospect, we now understand why. But what I want 
to pursue in the limited time left to us is how do you perceive 
getting the knowledge out to the State and locals about what 
you are really looking for, based on your intelligence, so that 
they can be better prepared to respond to you with things that 
are insightful and timely?
    General Hughes. We are doing that now by publishing and 
disseminating in a variety of different ways information about 
terrorist tactics, techniques and procedures. We are doing that 
largely at the unclassified level. So we take classified 
information into our system, we develop--and we do this by 
way--as well as the FBI and the Terrorism Threat Integration 
Center, we do it sometimes together and sometimes separately. 
But the net result is the same, an informed citizenry away from 
the Federal Government. And all of this information I guess 
that has come to us, and we have disseminated out, has greatly 
aided in an understanding out in the communities of our 
country, an understanding of how terrorists might act and what 
to look for, which was the kind of the construct of your 
question.
    We hope to continue that in a more robust way with this 
enhanced communications system. I will also mention that we 
have an initiative to bring three or four, or however many can 
be supported, persons from each State and from a number of the 
major cities here to Washington this summer, to gather them 
here and teach them or train them about some of the information 
handling mechanisms that they are going to have to implement 
now that we are moving them into this classified environment.
    Ms. McCarthy. Will the $10 million in the budget for 
security operations cover that, not just that training but the 
States' capacity or the--.
    General Hughes. We hope to cover parts of it. I don't think 
$10 million will cover all of it. But in some cases, 
interestingly enough, the States have taken their own 
initiatives with their own money or their own resources, and 
once again, in some places this is extremely robust, like New 
York, Los Angeles, for example, and other places it is less 
robust. But we will help where we need to help and where it is 
appropriate to help in the best way that we can.
    Ms. McCarthy. Thank you. I know that States like Missouri 
are broke. So I am sure that they will welcome that opportunity 
for your help.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gibbons. Thank you. We will turn to the gentlelady from 
Washington, Ms. Dunn, for 8 minutes.
    Ms. Dunn. Thank you very much, Mr. Chairman, and welcome to 
our committee, General. It is good to have you here. I am very 
curious about TTIC, and I am not sure how it ended up under the 
aegis of the CIA in the beginning. I know that you are on that 
board.
    I was a little concerned a couple of weekends ago, as we 
went to SOUTHCOM and had a session with them, that the 
Department of Homeland Security wasn't even on their chart for 
people who are receiving information from the task forces, and 
so forth, that are controlled by them.
    I am wondering what your take is on TTIC. Many of us 
believe it should be under your aegis. Could you give me a read 
on that, tell me how it is working, whether you believe that 
you have adequate input and how it might work if it were under 
the Department of Homeland Security?
    General Hughes. Sure. My view is that--and I should tell 
you, by the way, that before coming to this job I was a member 
of the Kerr Commission, which was put in place by the Director 
of Central Intelligence to study the Terrorism Threat 
Interrogation Center and to come up with some viewpoints about 
this issue by living and working in the Terrorism Threat 
Interrogation Center for about 2-1/2 months.
    So I am pretty familiar with what they do and how they do 
it and why the decision was made to place them where they are. 
My view is that that decision to place them under the umbrella 
of the Office of the Director of Central Intelligence was a 
very good decision for a couple of reasons. They formed this 
organization rapidly and brought it on line very rapidly within 
the support system, the structure of the Central Intelligence 
Agency. Without that structure or something similar to that, I 
think it would been a very slow start and much more difficult. 
They are a very robust organization now and getting more so all 
of the time. And I am directly connected to them, and I would 
say that they are today, as we speak this morning, the most 
robust information source for the Department of Homeland 
Security. We are a direct customer of theirs, and John Brennan 
and I directly communicate several times a day whenever he is 
here. He is right now traveling. But when he is here, we are 
very close and very much interacting.
    My view, which has not changed, is that at some point we 
need to consider the Terrorism Threat Interrogation Center 
coming under a different kind of management structure, perhaps 
under DHS, perhaps under an association of structures of some 
kind, because it is a very broad organization in its charter. 
It is very connected to so many different kinds of 
organizations, which is a very interesting feature to have an 
organization like this when you build a kind of, let's call it 
a joint organizational or combined organization, in the context 
of the Department of Homeland Security. That means that it is 
connected virtually to every other correspondent in the 
environment of counterterrorism and securing the homeland.
    The same thing is true at the TTIC. One should not view it 
as a central intelligence agency or just as an intelligence 
agency organizational entity. It is very interactive with law 
enforcement, with others in the Federal Government. I think it 
has an important place. I think we ought to let things evolve 
for a little bit.
    With regard to your comments on--not your comments but Ms. 
McCarthy's comments perhaps on the way this information passage 
works, it is a very difficult kind of thing. The TTIC right now 
at the all-source Top Secret special compartment intelligence 
level acts as a hub for international and domestic terrorism. 
To the degree that international terrorism affects the United 
States I am interested, and that information comes to me. To 
the degree that I am connected to the TTIC all of the 
information on the domestic environment comes to me. And we 
work together in a very, what I would call synergistic way. 
They do first the line analysis, prepare products, put the 
information in context in a lot of ways and deliver it to us. 
My organization does more detailed analysis in some cases, or 
we work together to do it. My organization has an independent 
assessment of it. My organization deals with it with regard to 
the State through private sector entities very directly, and 
that is what we should do. I think it is working very well.
    I do think, and I personally think that the Director of 
Central Intelligence would agree with this, at some point in 
time the placement of the organization and its roles, missions 
and functions with regard to central authority needs to be 
reconsidered. We might, by the way, in that reconsideration 
decide it is fine where it is. I don't know. But I do think 
that that should be done sometime after a little longer 
evolution.
    Ms. Dunn. I appreciate your answer. I would think that 
since your department, the Department of Homeland Security, 
really is charged with the very responsibilities that TTIC is 
doing, I think the sooner rather than later that critique takes 
place and that analysis takes place of where it should be 
located, that would be good, because we may have to change the 
act, since it specifies that you do the very things that TTIC 
does yet they are housed in a completely different department. 
But I appreciate your flexibility on it.
    General Hughes. Please keep in mind, ma'am, that--I wanted 
to make a point, and we don't do everything that TTIC does. 
With regard to international terrorism, we are not directly 
involved in the broadest scope of the Terrorism Threat 
Integration Center. The focus that we have is on the United 
States. Where international terrorism touches the United 
States, of course we are interested. Where it does not or where 
it seems apart from the security of our homeland, that is the 
business of others and TTIC serves them all; it broadly is 
serving the United States Government.
    Ms. Dunn. Thank you, General. Let me ask you a couple of 
budget oriented questions quickly. Does the IA Directorate have 
an integrated cross-cutting budget or management focus that 
pulls together other intelligence components within the 
Department, such as those that are run by the Coast Guard and 
TSA, and if this is true, how is it being coordinated?
    General Hughes. We do not have such a cross-cutting budget 
process. We have an interaction between the component parts of 
the Department of Homeland Security, of which there are some 
important organizations like the Coast Guard, the Secret 
Service, the Immigration and Customs Enforcement, the Customs 
and Border Protection, the Transportation Security 
Administration, the Emergency Preparedness and Response, 
formerly the FEMA organization and the Federal Protective 
Service.
    We are beginning the process of amalgamating the 
intelligence elements of those organizations in some ways. One 
of them will be better knowledge and oversight of the budgets 
that they have and the resources that they apply.
    Ms. Dunn. Thank you.
    Mr. Gibbons. Thank you, Ms. Dunn, and I will now recognize 
the ranking member of the full committee for 5 minutes. Mr. 
Turner.
    Mr. Turner. Thank you, Mr. Chairman. General Hughes, thank 
you for being with us today. I have just put a chart before you 
there that I wanted to direct your attention to. I think that 
you have a copy of it already.

           Submitted for the Record from the Hon. Jim Turner

                 United States Government Intelligence

                         Analysis Organization

Pre 9/11
        <bullet> CIA & FBI Counterterrorism Center (CTC)
        <bullet> DOD Intelligence Agencies
        <bullet> FBI's Counterterrorism Division
        <bullet> CIA Directorate for Intelligence
        <bullet> State Department Bureau of Intelligence and Research
Post 9/11
        <bullet> Terrorist Threat Integration Center (TTIC)
        <bullet> DHS Information Analysis and Infrastructure Protection 
        (IAIP) Directorate
        <bullet> FBI National Joint Terrorism Task Force
        <bullet> DOD Undersecretary for Intelligence
        <bullet> Northern Command Combined Intelligence Fusion Center 
        (CIFC)
        <bullet> The Associate Director of Central Intelligence for 
        Homeland Security
        <bullet> FBI Foreign Terrorist Tracking Task Force (FTTTF)

        [GRAPHIC] [TIFF OMITTED] T2641.001
        

    What it shows us is the intelligence analysis organizations 
that existed before September 11th. Do you see, five of them 
there? And then the new organizations that have been added 
since
    September 11th, and of course all of the pre-9/11 
organizations are still in existence.
    So it does give us some concern as to whether or not with 
this proliferation of new agencies we are going to be able to 
connect the dots, so to speak, with all of this information 
available coming from new sources. I guess in looking at that 
total picture, there was a National Journal article that came 
out this week. I don't know if you have seen it. It made a 
couple of comments that I suspect I should read to you and let 
you respond to it.
    In that article it says, TTIC now produces a Top Secret 
daily report on threats to the Nation, but isn't required to 
share with Ridge and his key lieutenants the intelligence on 
which its conclusions are based. Is that a true statement?
    General Hughes. That is false. Indeed, I receive that 
document every day directly on my desktop computer first thing 
in the morning in a very timely fashion, and the Secretary and
    Deputy Secretary of the Department of Homeland Security 
also receive it.
    Mr. Turner. Well, the comment was not about you receiving 
the daily report. The comment that I read you said that you are 
not able to access the intelligence upon which the conclusions 
in that daily report are based.
    General Hughes. That is false.
    Mr. Turner. So you are telling me you can get any 
information you want to out of the CIA or these other agencies 
that are listed on this chart?
    General Hughes. During my opening comments, and first line 
of questioning from Mr. Gibbons, I did relate that there are 
shades of autonomy or automatic mechanisms here. Sometimes I 
have to work a little harder to get that information, depending 
upon its compartmentalization and depending upon the nature of 
the information source. But to date I am not aware of 
information from the Central Intelligence Agency that has been 
directly withheld from me. There isn't any as far as I know.
    Mr. Turner. But you are in the same position that we often 
find ourselves; you can't get behind some of that information 
because some of that is very well protected by the CIA and some 
of these other agencies?
    General Hughes. Interestingly enough, sir, because of my 
previous position and my experience I am badged at the CIA, I 
have had direct working access at the CIA. I am invited to join 
the DCI's afternoon/evening meeting on the topic of countering 
terrorism, and I indeed do have very robust access personally.
    Mr. Turner. In your division right now I understand that 
you have 60 employees. Is that a correct statement?
    General Hughes. There are more employees than that at this 
time, but it is not as robust as we would certainly wish, and 
the total number of employees that you just quoted counts not 
only Federal full-time persons who are employees of the 
Department of Homeland Security, but indeed are detailees and 
are government contractors and IPAs from the laboratory and 
other government organizations.
    Right now I am told by my staff that the total number this 
morning--by the way, it is changing every day--is 97.
    Mr. Turner. When you said a minute ago that you have access 
to all information based on your previous work, do you have 
access to all covert action programs that the CIA conducts?
    General Hughes. No, I do not. But--certainly not all, by 
any means.
    Mr. Turner. You made mention a minute ago that you have 
access to information relating and are provided information 
relating to domestic terrorist activities and threats but not 
foreign?
    General Hughes. I hope--I tried to say that if the foreign 
events or the foreign information touches on the security of 
the homeland, then I do have an interest in it and I get access 
to it.
    Mr. Turner. But it is not routinely provided?
    General Hughes. It is. There is an issue here of 
definition. Much of it does flow routinely. But there is some 
of it that is a little bit nebulous, maybe something that 
happens in a place like Afghanistan. The context of the 
conflict may not seem in the due course of events to touch upon 
the security of our homeland, but occasionally it does. And so 
when it does it is kind of the burden to decide that is placed 
on a number of intelligence organizations and officers along 
the way as to whether I need to know about it as the Department 
of Homeland Security intelligence chief.
    So that is the kind of thing that we need to evolve into 
and have greater understanding than we do now.
    Mr. Turner. Thank you, General. I see my time has expired. 
Thank you.
    Mr. Gibbons. Thank you, Mr. Turner. We will turn now to the 
chairman of the full committee, Mr. Cox, for 5 minutes.
    Mr. Cox. Thank you, Mr. Chairman. Welcome, Secretary. As 
you know, your responsibilities are very near and dear to the 
oversight aims of this committee. We are very, very keen on not 
only the Department succeeding, but specifically your 
directorate succeeding and specifically IA, because it is the 
heartbeat of prevention. It is the best means that we will have 
to find these terrorists and stop them before it is too late. 
And it is for that reason that IA exists within the Department 
of Homeland Security, because the focus being the United States 
territory itself, there are great concerns about CIA taking on 
this new domestic responsibility.
    The CIA, which houses TTIC, is of course ahead of IA in its 
development, and as the ranking member was just inquiring, we 
want to make sure not only that you have access to everything 
at TTIC and in fact access to everything else on the chart that 
was up there a moment ago, but that it is routinely provided as 
the statute requires and you don't have to pry it out like a 
dentist doing a root canal, that it is provided in real-time 
and that the purpose for which it is provided is your own 
analysis.
    And beyond doing your own analysis, we want to make sure 
that you and your troops are the front line for the United 
States Government in analyzing this intelligence as necessary 
and providing it to U.S. domestic actors, particularly in the 
private sector. I am not entirely certain that at least thus 
far we have got DHS out in that lead role, and it needs to 
happen.
    Likewise, we want to make sure that you are out in front 
and DHS is out in front using what you know and what you have 
learned to train people within the domestic hemisphere so that 
they can handle this information as well.
    And so I wonder if you could talk to me about IA's role, 
first, in sanitizing intelligence and providing it to the U.S. 
domestic actors, and, second, training U.S. domestic actors on 
their part of this intelligence sharing network?
    General Hughes. I am going to be duplicating a couple of 
things that I said earlier, especially in response to Ms. 
Dunn's question.
    Mr. Cox. Well, you don't need to do that. If you want to 
refer me to that answer, that is sufficient.
    General Hughes. Let me just make two replies to you, sir. 
First, we have not achieved the kind of connectivity yet that 
we need to achieve. We are working hard to do it, and this is 
both a technical issue and a policy issue, and it also 
encompasses the issues of training that you brought up.
    One of the efforts we have ongoing is to try to figure out 
how to train a rather large number of persons who are in the 
State, local, tribal and private sector, and major cities, 
offices that have charged homeland security as a kind of a 
large topic area out there in the country. And we have a plan 
to bring some of them in here to the United States Capital this 
summer and train them over a 3-day period or so, both train 
them and inform them, by the way, and also get to know them 
better and make them part of this larger extended family of 
homeland security.
    So we do have efforts that I think you will applaud, and I 
hope you will be part of in fact to do this activity. I want to 
make sure though and leave with you this final thought. This is 
an evolving thing. It is something that we are going to have to 
build over some period of time. It is not something that you 
can do very rapidly overnight.
    I would say--I would give ourselves a B-plus right now for 
effort. We are trying hard to get this done. Where there is 
truly a piece of critical information I will do anything, and I 
have done a few things, to call, to communicate, to get it out 
there in some way.
    One of the issues I covered earlier is that sanitizing it 
at the unclassified level does take away a good deal of the 
detail and some of the vital information that must be 
communicated at times. So my vision, my effort, is to put it 
out there at the unclassified level when we can, but when we 
can't, to have the option to put it out there at the Secret 
level, which seems to be the right working level generally. In 
some cases we might go beyond that, but in most cases that is 
the goal.
    Mr. Cox. Well, you have nothing but support on this 
committee for what you are trying to do, and at least for my 
part I want you to understand that I fully appreciate the fact 
that this is an evolutionary undertaking and that no one here, 
1 year into the existence of the Department, expects that this 
is going to be a completed edifice. What we are interested in 
is the blueprint. We want to make sure that we know where we 
are heading and some day we can expect to reach these 
destinations, and I am particularly in agreement with you that 
our sharing, which I hope that DHS and you and particularly 
General Hughes will take the lead on, be not exclusively 
unclassified information. Part of the reason for wanting you in 
the forefront of training in fact is so that we will have 
people with experience and knowledge across the country who can 
instantly receive this information at the State and local level 
and at the private sector.
    So you are to be commended for what you are doing. I am 
very, very appreciative that the President and the Secretary 
have selected you given your background, your experience, and I 
think the country is very well served by your being there. I am 
very pleased that you are using your background and experience 
in a muscular way to make sure that the blueprint in the 
statute is what is realized, and also that the good policy aims 
that are better than that statute which you share are realized. 
So thank you very much.
    General Hughes. Well, thank you, sir.
    Mr. Gibbons. Thank you, Mr. Cox. We will turn now to Mrs.
    Christensen for 5 minutes.
    Mrs. Christensen. Thank you. Thank you, Mr. Chairman, and 
welcome, General. I also share the concerns about TTIC and your 
agency, but I am not going to ask those questions again, but 
just to let you know that I think many of us on the committee 
share those concerns. And I realize that you have only been in 
your office for about 4 months, but many of us are also 
concerned about the slowness with which the Department has 
moved to get up to speed. And so my question is really a very 
basic one. Are you now in a permanent home, is your directorate 
now--.
    General Hughes. Yes. I believe we are in a permanent home 
for the foreseeable future, I would say for 5 years or longer. 
I believe that I am in a permanent place, and the building that 
I am in, we are proceeding to finish it and make it more 
effective and capable, because we believe we are in a permanent 
place.
    Mrs. Christensen. And your staffing level, with respect to 
the staffing level that has been set for you, where are you?
    General Hughes. Staffing level is not yet at 50 percent of 
our hope. In fact, we are far short of it, but we are trying to 
hire people as rapidly as we can. If I may just elaborate on 
that for a moment.
    We have to have people in the section that I am responsible 
for, intelligence, who are cleared for Top Secret, special 
intelligence or willing to take a polygraph examination, and 
persons who come into that office immediately get access to 
information that bears great responsibility personally. So we 
have to do this right. It is not simple or easy to go out and 
hire these kind of people. We are doing it as fast as the 
system can kind of bear, and we are doing it as well as we can 
right now.
    However, I will tell you, this is one of my areas of 
greatest frustration. We have had a fairly large number of 
people apply for jobs. Some of them have had background issues 
that we found to be unsuitable. Some of them have not been 
willing to wait for background investigations of this nature to 
take place, and some of them frankly just haven't been suited 
to the work. But we are hiring people.
    Mrs. Christensen. Well, not only am I concerned that you 
are not fully staffed for the very critical function of your 
office, but how are you set up to do the housekeeping, getting 
the offices set up, the staffing set up and still not have that 
detract from your statutory responsibilities?
    General Hughes. Well, please keep in mind, ma'am, that we 
have used contractors to great effect, and we are continuing to 
do that. They are indeed responsible in many ways for the 
development of our information technology structure. They have 
built out the facilities that we now live in. We have fell in 
on a Navy facility, and some of that Navy infrastructure is 
still in place and supporting us. There is a transition period 
here where much of the support requirements will now begin to 
fall on the Department of Homeland Security, and we have to put 
in place our own infrastructure support mechanisms to do that.
    Mrs. Christensen. It is not taking away from your direct 
staff's responsibilities on the intelligence side?
    General Hughes. The way you phrased the question, ma'am, it 
is not talking away from it. It is something of a competitive 
issue at times. Information technology, as an example, has been 
a struggle, but we are now seeing a light at the end of this 
tunnel. We have gone to a new building. We now have computers 
that operate in the U.S. Intelligence Community structure in a 
pretty robust way and things are very rapidly improving, and we 
hope that that improvement will continue as it has.
    Mrs. Christensen. Okay. Among the statutory 
responsibilities are of course assessing vulnerability of key 
resources and critical infrastructure and merging relevant 
analyses and vulnerabilities assessments, identify priorities. 
I am reading from your statement.
    Where are we in that, assessing vulnerabilities of key 
resources and critical infrastructure, and doing those 
assessments to identify the priorities for protective and 
support measures?
    General Hughes. In the structure that I am placed in, I 
don't think this is necessarily easy to understand without some 
kind of a diagram. But IAIP, Information Analysis and 
Infrastructure Protection, is two parts. I am the IA guy, the 
intelligence person. I provide the threat, and I provide 
assessments, judgment.
    Mrs. Christensen. So do you have then the key resources and 
critical infrastructure--do you have the IP side information on 
which to do your IA side?
    General Hughes. Yes. The other side of this organizational 
entity, infrastructure protection, is described in considerable 
detail, what is referred to as the critical infrastructure of 
the United States sometimes by way of excruciating detail. And 
I think over the months and perhaps a couple of years to now, 
that will be a continuing effort, to describe it more fully and 
in more detail. But as that description begins to occur and is 
occurring, that is then mapped against, or another way to put 
it, is threat information is mapped against it so that the two 
are kind of interactive against the infrastructure. And where 
there are vulnerabilities, where there is targeting ongoing 
against part of our infrastructure, where there are concerns 
and gaps and issues, those are being identified and they are 
being acted upon. But the action is left to others. We are the 
organization that characterizes the problem.
    Mrs. Christensen. Thank you, Mr. Chairman. I will give you 
back the balance of my time.
    Mr. Gibbons. Thank you very much, Mrs. Christensen. We turn 
now to the gentleman from Connecticut, Mr. Shays, for 8 
minutes.
    Mr. Shays. Thank you very much, Mr. Chairman, and, General 
thank you very much for your very important work.
    One of the things that I am very convinced about is that as 
we set up this new Department of Homeland Security we have a 
wonderful reservation of very experienced people to draw on. We 
appreciate your experience.
    I do want to say to you that I know that the Department is 
wrestling with a lot of issues and there will always be things 
that we don't like that it is doing, just by the nature of it. 
But when we wrote this bill and created you, you are now 
implementing that. We are trying to see if it is being 
implemented in the way that we thought. I view your effort as 
the receptacle of information. I didn't view that you sent 
people out and you did the work. And one reason we didn't want 
you to have a part in the Intelligence Community where you were 
directing their activities was that frankly a lot of us felt 
that this whole effort needs to be improved. And while we are 
doing the Department of Homeland Security, do we have the 
capability to also kind of rework intelligence?
    Having said that, however, I believe that you should be 
privy to all information and that you shouldn't have to cajole, 
you should haven't to use charm, you shouldn't have to use your 
past experience. It is just part of the law and they should 
have to perform, and I would hope that one of the things that 
you will do is if you are not getting cooperation you will let 
the chairman of the full committee and the chairman of this 
subcommittee know, however you choose to, that it could be 
better.
    I chair the National Security Subcommittee, and before 9/
11, even though I have theoretical jurisdiction over some 
aspects of the Intelligence Community, they always gave us a 
permission slip not to show up for our full intelligence 
committee.
    What I am interested in knowing is the following. I am 
interested to know what your role is in determining the 
terrorist threat level, whether it is low, green; guarded, 
blue; elevated, yellow; high, orange; or severe, red. What is 
your role in determining that?
    General Hughes. Well, sir, I am happy to report to you, and 
kind of proud of this, that during the recent period when we 
did raise the threat level to orange, and even within that 
orange level perhaps raised some parts of it to a level of 
pretty intense defensive and protective activity, and then 
reduced the threat level back to the yellow elevated level that 
we remain at today, that I was the person who was directly 
turned to and asked by the Secretary of the Department of 
Homeland Security--both inside the Department's own 
deliberative group and externally in the security consultive 
body of our government, I was the person that he turned to and 
asked for the intelligence assessment about whether to raise, 
and which I actually advised him to raise, and whether to 
lower, and I advised him to lower and moderate.
    Mr. Shays. Well, I appreciate knowing that you had this 
level of impact. I would love to then--it is comforting to know 
that I am finally speaking to someone who is taking some 
ownership.
    What concerns me is I have heard Mr. Turner suggest that 
given how it works, we may not even want this warning system. I 
tend to view, given how it works, I think it needs to be 
improved. It is not a criticism of you in terms of knowing that 
we need to raise it, but it is a criticism of the 
implementation of it.
    For instance, I am having a rough time understanding why we 
are at elevated when we are all acting like we are at guarded, 
and I am concerned that we only have one level to really go up 
to. I view red as basically under attack. And so we are at 
elevated, which is significant, but we are acting as a 
populace, and I think even our first responders back home, that 
they are under a general risk right now, and that they are 
under a guarded condition. I think you have a sense of what I 
mean here. I would love you to have some impact over maybe 
getting us to allow for another gradient.
    The other thing I am interested to know is what is the 
benefit of having a yellow alert, which is elevated, around the 
country when we knew for a fact that the threat was not 
national, it was fairly geographical and urban in many cases.
    General Hughes. It is--those are very complex questions.
    I think I will answer it in two ways, two thrusts if you 
will.
    First, I personally like the system as it is, and I think 
there is room for flexibility within each color zone. We have 
chosen to be at elevated for what I think are the reasons that 
I am going to explain in the second part of this answer.
    General Hughes. But let us suppose for a minute that there 
are gradations, and I believe there are, and there are actually 
ways inside this threat advisory system for the Secretary of 
Homeland Security and others in the Federal Government to 
include the President to give directions that are very specific 
within the color codes and combinations; and those colors 
especially, but also the gradations within the colors, are 
meant to allow both for a national alerting mechanism, kind of 
a national view of the condition we are under and for some more 
specific, focused efforts to be delivered to particular people, 
particular groups, particular sectors, particular locales 
within our country that, for reasons of threat and perhaps for 
vulnerability, require a different sort of approach than merely 
the color and verbal or wordage definitions that are in the 
Homeland advisory system now.
    I think it is okay, but others besides me--and this is not 
really my policy issue. I think that others will be able to 
decide whether or not changes are required. Whatever they are, 
I will honor them, but I need to give you the second part of 
this answer just briefly.
    Mr. Shays. And then I am going to want to make a quick 
response.
    General Hughes. Okay. I am an old soldier, and I am very 
familiar with war, and we are characterizing this as a war. But 
in the war that conventionally is thought of and understood, 
there is a time of development of the nature of the conflict 
and the conflict itself and the war that takes place and the 
post-conflict environment, and it is relatively slow, in many 
cases. In some few cases, it might be days to weeks, but in 
most cases it is weeks to months to years even that these 
approaches to the conflict, the conflict itself and the post-
conflict environment takes shape.
    We are dealing in a much different environment where, 
literally, my timeline for action with regard to information is 
one hour. That is what I tell people.
    Mr. Shays. Let me say I am going to be having a hearing in 
my own committee on this issue and get in greater depth, but I 
still am concerned that we need a system that the public also 
understands and knows what to do. It cannot be that the public 
just does what it normally does when you are at yellow alert. 
It needs to be a geographic, I believe. I do think the system 
is worth using, but I think we need to improve it.
    Thank you.
    General Hughes. Sir, I am in favor of making sure that the 
citizenry understands what we are doing.
    Mr. Gibbons. Thank you, Mr. Shays.
    I turn now to the gentleman from Massachusetts, Mr. Markey, 
for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    At yesterday's hearing before the Senate Armed Services 
Committee, CIA Director Tenet revealed that he has spoken to 
Bush administration officials when he felt inaccurate 
statements were being made about the threats posed by Iraq. 
Specifically, CIA Director Tenet acknowledged yesterday that on 
more than one occasion he has noted questionable statements in 
defense of the Iraq war by Vice President Dick Cheney. As we 
all know, these private corrections did not prevent the Vice 
President from continuing to make assertions about the imminent 
threat posed by Iraq, statements which we know now were 
exaggerated and inaccurate.
    Since you began serving as Assistant Secretary, have you or 
the information analysis group disagreed with intelligence 
assessments or statements about terrorist threats made by the 
Department, the White House, the CIA, the FBI or other members 
of the intelligence community?
    General Hughes. Yes, we have had differing views and 
different view points at times. We have discussed them in the 
appropriate setting.
    Mr. Markey. So please indicate in which instances you 
disagreed, the process you followed to register your 
disagreement, and whether your disagreement resulted in any 
adjustment in the intelligence assessment.
    General Hughes. In most cases these disagreements are at 
the analytic level, where an analyst will have a different view 
and the analysts in IA may have one view of the importance of 
or the meaning of information and I will share their view or 
not, as the case may be. This is a very individual sort of 
thing. But at some point I need to make the difference mine, 
and then I will represent that to my associates, the heads of 
intelligence at the CIA, at the TTIC, at the FBI, and the 
Department of Defense, the appropriate people that I interact 
with. Quite often, it never reaches that level.
    Mr. Markey. What about when it does?
    General Hughes. When it does, then I am certainly very 
capable of expressing my view, and I do.
    Mr. Markey. What happens when there is a disagreement with 
the intelligence assessment which the intelligence officer, 
you, is making?
    General Hughes. To the best of my knowledge, there has 
never been an agreement--or disagreement, rather, that has 
risen to the level where I felt I had to take a note or make a 
public declaration of difference. That has not happened. We 
have been able to iron out our views.
    Mr. Markey. Well, obviously, CIA Director Tenet felt the 
same way, that he never had to publicly criticize, but it is 
obvious now that CIA Director Tenet had not let the public know 
that he did not believe that there was no uranium found in 
Niger and that there were issues that were being completely 
distorted by the President and Vice President in terms of items 
that were dangerous that were inside of Iraq. It is obvious 
that he just kept quiet and never made it public.
    General Hughes. Without my commenting on your statement 
there--I mean, there are so many issues there I don't know 
whether that is what Mr. Tenet did or did not do. I would 
rather not agree with your premise. I would rather just say 
that in my case I can assure you I can look you and anyone else 
in the eye and tell you that I am very capable of expressing my 
independent views. I have and I will in the future.
    Mr. Markey. Well, you told Mr. Turner that sometimes you 
have to work a little harder to get the information which you 
need.
    General Hughes. That is true.
    Mr. Markey. Well, that doesn't make me feel comfortable 
that you have to work hard. My mother always said that you 
should always work smarter, not harder. That is the point of 
having you there. But what you are telling us is that you have 
to work harder than other intelligence agencies in order to get 
the information. That is a dangerous situation.
    General Hughes. If I thought it was dangerous, I would tell 
you. At times I have certainly been frustrated by it, but it is 
not dangerous yet. It hasn't been dangerous, but I will have to 
tell you that it is very much a concern of mine. But please 
keep in mind, sir, I am giving you a characterization of many 
events over the 4 months that I have been at this job, 
approximately. My view is that we are improving this each and 
every day.
    Mr. Markey. I understand that. But what you said was that 
your own past professional experience has helped you to gain 
access to information collected by the intelligence community. 
That doesn't make us feel good. Anyone who sits in your 
position, even if you are not an old war horse, should be able 
to get the information.
    General Hughes. I agree with you.
    Mr. Markey. The very fact that you are there and not 
someone else, that makes it possible for you to get specific 
types of information, then that is a very dangerous situation 
for the homeland security of our country.
    General Hughes. I disagree completely, and I will tell you 
why. I think the reason I am there is because I am an old war 
horse. I was brought in to kind of know how things work in this 
large amalgam we call the U.S. intelligence community. What I 
am doing, sir, and I think you ought to be not only happy but I 
hope you will help me to do this, I am building the foundation 
that others can come in and then--.
    Mr. Markey. Describe a situation where the old war horse 
was able to get information as someone else wouldn't. Could you 
do that for us?
    General Hughes. As I answered Mr. Turner, I am 
knowledgeable of the U.S. intelligence community in a broad way 
because of my previous position. I am also invited specifically 
by the CIA and by others to come into their organization where 
others may not be invited or indeed might not be as 
knowledgeable as I am. There could be others that are just as 
knowledgeable. I think some of my predecessors in this job 
were, in the case of CIA. But if you will look over at my 
background and my record, I have been able to fill for about 3-
1/2 years a position of the 1Director of Defense Intelligence 
Agency and before that the J-2 of the Joint Staff.
    Mr. Markey. I understand.
    I will just finish in 10 seconds and just say, if I may, 
Mr. Chairman, that it shouldn't take an old war horse. You used 
the word others might not be given access. All of that 
conditionality goes to the core of whether or not there has 
been a seamless information flow which has been put in place. 
Every time you use the word ``might'' during your testimony, 
you actually raise questions about whether or not this 
administration has come to grips with the necessity to connect 
the dots in a way that gets all the people who need the 
information into the flow as quickly as possible to prevent 
another 9/11, and that is very dangerous.
    General Hughes. Just a brief rejoinder. I think that the 
last few words you stated, sir, are right. I am laying the 
groundwork, and it just happens to be me and my personality, my 
background, for this work. It has to be laid. It doesn't matter 
if I am a completely new person, but it helps if I am not, and 
that is the advantage I have, and I am taking full advantage of 
it. Someone, hopefully far younger and far less experienced, 
frankly, than me, is going to come into this job, and their 
foundation is going to be very, very good.
    Mr. Markey. My only point is, when you walk into the room, 
you should walk in as though you are the President of the 
United States with his direct orders to give every piece of 
information to you; and what you are telling me is that they do 
not see you as a direct extension of the White House in 
ensuring that all information is given to you to prevent 
another 9/11. Unless the White House takes that step, I am 
afraid that you are playing a valuable role but in substitution 
for something which should be coming from a much higher level.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Mr. Sweeney from New York is recognized for 5 
minutes.
    Mr. Sweeney. Thank you, Mr. Chairman.
    General  welcome. I don't consider you an old war horse. I 
consider you a patriot. Young or old, I thank you for what you 
are doing.
    As you can tell by the questioning, there is a great deal 
of concern. We are in a new phase of developing the Department 
of Homeland Security, and I think some of this is natural, and 
you have made the point in reoccurring themes that is all 
revolutionary. The concern is, in merging these entities and 
creating what Mr. Turner referred to as a proliferation of 
agencies or certainly an expansion of agencies, it all seems to 
be centering on at this point in time TTIC. Whether this is 
normal response to bureaucracies or not, we are all concerned, 
as the chairman pointed out, that you need to be relevant and 
at the table and involved.
    We had this line of questioning last week with General 
Lebutti. In fact, I know the chairman has asked and I have 
asked for some specific information back on staffing, et 
cetera; and we were told it was coming soon. If you could 
ensure that it comes today, for example, because it has been a 
week, that would be greatly appreciated.
    This all really gets to the core of what you said, the 
issue of definition between the sharing of information and 
intelligence and defining between the domestic versus the 
international and its application. I understand that, but I 
have some real practical concerns.
    For example, our view I believe when we passed this 
process, it is not that you necessarily had the ground forces 
to gather and collect, because that would duplicate something 
that already existed, but that you were right there in the 
filtering of that information. You were right there at the 
evolutionary parts of that process.
    My simple question is, if you are 25 minutes away from 
TTIC, how are you going to do that? Really, I think it is at 
the core of questions on both sides of the aisle of this issue. 
We are very concerned that you are essentially being in some 
ways pushed aside and having to fight when Congress has already 
determined your role. Could you address that issue more 
specifically than you have thus far?
    General Hughes. Well, I don't know if you were here when I 
did take up that issue at the beginning a little bit. My view 
is that we are about one millisecond away from TTIC. We are 
directly connected to them with regard to automation and 
communications.
    One of the earlier questions was about the primary 
intelligence that is produced by TTIC for the national 
leadership and I receive that now on my computer desktop.
    Mr. Sweeney. Do you need a physical presence there?
    General Hughes. We do have a physical presence there. We 
have a representative there, and we are just changing that 
person out from one to another person. So our intent--my intent 
personally--is to sustain that relationship there. We also have 
a personnel bill which we are finding it very tough to honor, 
but we are doing our best to try to honor it, to put some 
fairly large number of persons in the TTIC, about 30.
    Mr. Sweeney. I would like to work with you in this 
committee and the approps on that.
    On the personnel end of it, you mentioned you have some 
frustrations in finding the right people, qualified people, 
etcetera, et cetera. We are hearing that you are losing people 
to TTIC because either the perception or the reality is they 
are really in the game and you are not, and I have heard this 
from a number of sources. Is there any truth to that?
    General Hughes. Boy, I can give you the most--.
    Mr. Sweeney. Your staff is nodding yes.
    General Hughes. I can give you the most recent issue. I am 
not aware of anybody that has gone to TTIC. Is there someone?
    I think there might be a huge misunderstanding here. Not 
only--I feel kind of funny giving you this answer. Not only 
have we not lost anybody to TTIC, to the best of our collective 
knowledge, but it is not really possible for us to lose anybody 
to TTIC because it is an amalgam of intelligence professionals. 
It is not a competitive environment.
    Mr. Sweeney. Okay, I have some executive session questions. 
The last one involves the need for a comprehensive, all-hazard 
Federal emergency warning system. Currently, there are eight 
separate systems that exist to provide cognitive notification 
of imminent and potentially catastrophic threats to health and 
safety. What are we doing to integrate those systems and do you 
agree we need to integrate those systems, I guess I should have 
asked first.
    General Hughes. The honest truth is, sir, I don't know what 
we are doing. This is out of my area of responsibility a little 
bit, and it is also something I just am not well informed on, 
but I would like to get back to you about that question, and I 
will. Do I think there should be a coherent warning system in 
the United States? Absolutely.
    Mr. Sweeney. Okay. Thank you, General.
    Mr. Gibbons. Thank you, Mr. Sweeney.
    We turn to Mr. Meek for 5 minutes.
    Mr. Meek. Thank you very much, Mr. Chairman.
    I appreciate your service to the country and also your 
coming before the committee today. I guess I want to ask a 
couple of questions that you have already heard, but I think 
that it is important enough to ask not the same question, but 
similar questions.
    You are the gateway to information not only to the Federal 
law enforcement agencies but also State and local agencies, am 
I correct?
    General Hughes. I don't think I am the only gateway. I am 
one.
    Mr. Meek. Yes, but you are the gateway as it relates to 
real intelligence.
    General Hughes. For the homeland security effort, yes.
    Mr. Meek. That is correct. I think it is important--and I 
am sorry. I didn't hear your opening statement. I am a member 
on the Armed Services Committee, and we had a similar meeting 
going on.
    I guess I want to pretty much address, from what I have 
read of your statement, your involvement not only with TTIC but 
with also the TSC, your personal involvement. I am glad that 
you have the CIA badge, I am glad you have the relationship 
with many others, but I am afraid that if you catch a cold, we 
are in trouble. I know that you are trying to build the 
infrastructure that is needed, and I think Mr. Sweeney--and I 
am glad that he is well-read and studied on this issue. I mean, 
I am concerned about this whole issue of physically not being 
with the rest of the team that is kind of moving in your 
direction, doing some of the same things--I think there is some 
value in having a cup of coffee with those folks. I think there 
is some value in running into them in the parking lot so they 
are thinking of not only you but your office. I know that you 
are building onto that, but I am very concerned about who is 
the number two and who is the number three person, since you 
are switching them out now--we know that attrition happens 
everywhere. How is that going to work towards the security of 
the country?
    I think also, as we start looking at your testimony, and I 
am so glad that you broke it down so that people can understand 
the role of your office and other offices, but pulling from 
your testimony. It provides a full spectrum of information 
support necessary for the operation of Homeland Security for 
the benefit of Federal, State, local and private sector 
officials throughout the United States to secure the homeland 
and defend the citizenry and protect our crucial 
infrastructure.
    Now that is important, and that is a very profound 
statement on your behalf. As we look at that in that mindset, 
the one hour, the human intelligence--the right here, right now 
--is so very, very important. I know, being someone who has 
been in law enforcement and sharing information--Ranking Member 
Turner talked about the pre-9/11 versus the post-9/11. We are 
looking at a lot more post-9/11. But is the information sharing 
really working? Are you getting the information that you need? 
You feel that you are, but what happens if you have to go on a 
trip or a conference or what have you?
    That same automation as it relates to being secure, I don't 
know if that is real-time with you. They have the relation with 
you. So I would urge if you could possibly reevaluate your 
location, where you stand physically every day, even the time 
that you are here in the committee, and while you have been 
here over an hour and a half, who is sitting at the wheel? It 
may seem elementary, but it is very important if you can give 
us some response.
    General Hughes. Well, first of all, a one-way pager from 
the Homeland Security Operations Center and from my staff, 
which is manned 24 hours a day, the intelligence analysis 
element of the Homeland Security Center. The people work 
directly for me.
    They are in constant communication with me wherever I am.
    I would like to introduce Mr. John Rollins behind me. If 
you will stand up, John.
    John is my Chief of Staff, essentially my deputy. He does 
not have all of the same access that I do. In fact, just last 
night we had a conversation about that very issue. I know that 
what you are saying, the issues that you are pointing out, are 
important to solve; and I have to get that done.
    Mr. Meek. Yes, General, that is important; and that is work 
that needs to be done.
    You are fully aware of the 9/11 Commission and what they 
are doing. The whole issue on 9/11 was intelligence and sharing 
of information, and we have so many--and I am not saying that 
you or anyone in this building or in the Department devalues 
the importance of making sure that State, local, the frontline 
people that are putting their lives on the line every day, that 
they have good information right here, right now. Your office 
is responsible for that.
    If something was to, unfortunately, take place or about to 
take place in this country, there is always going to be an 
evaluation of what took place; and I would say that in closed 
session that you really drive home the importance of pushing 
from the Hill of letting the intelligence agencies know that 
they must--if they like it or not, if it is a fraternity or 
sorority or whatever you want to call it, that your office has 
to be at the forefront. If not, they are at the table, when 
they get real information, to pass that on to those individuals 
that are on the front lines.
    Mr. Chairman, thank you for the extra additional time I 
took myself.
    But, General, I want to thank you. I believe that you are 
committed, from what I can see. I have read your background. 
You have been a patriot your entire life. But it is vitally 
important that we do that, and I don't care if other folks get 
upset about, oh, the Secretary went to the Hill and the next 
thing you know, we have all these Members of Congress that are 
barkingdown--I would rather barkdown their back. I would rather 
make them upset of your presence here today versus the latter.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you, Mr. Meek. We will turn now to Ms. 
Norton for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman; and thank 
you, General Hughes, for your testimony and, of course, for 
this vital service you are rendering to our country.
    I am interested in the fact that we may have gone from 
having too little intelligence to having your analysts 
bombarded with intelligence. I suppose that is better than if 
we had only those two choices. That would be the better choice.
    This past weekend or the weekend before last, I was with a 
congressional delegation that went to Guantanamo. Actually, I 
was very impressed with Guantanamo. I was impressed with the 
kind of intelligence that our folks, most of them, Reserves, 
public school teachers who are now interrogators--I was 
particularly impressed with their methods which do not involve 
the kind of coercion you see in movies but very sophisticated 
rewards, harmless rewards, that are apparently getting real 
intelligence, according to all we heard from those who briefed 
us and from what we saw with our own eyes. We actually saw 
people being interrogated, some very dangerous Al-Qa`eda being 
interrogated.
    At the same time, I represent the District of Columbia; and 
I saw the effect of what must have been good intelligence when 
at Dulles we had planes that were turned back or not allowed to 
leave from Europe. What I am interested is, given this 
intelligence from so many sources, how your analysts are able, 
given the load of intelligence the likes to which they have 
never seen before, to distinguish, for example, disinformation 
from credible information. Here you have it coming at you from 
all sources. We cannot tell whether some of what, for example, 
we see here is just a case of people covering their you-know-
what just in case something happens could be disinformation--
but even if it is, better to stop everything--or whether you 
are able, given intelligence and an intelligence load the like 
of which our analysts never had before, to decide whether or 
not anybody could decide what was credible and what is 
actionable.
    Can you tell me how, given the fact that you are getting it 
now, not just as the CIA used to get it, as the FBI used to get 
it, but from any number of sources, how in the world you are 
able to tell whether we are dealing with something that ought 
to be acted on and particularly how you are able to distinguish 
disinformation from credible information?
    General Hughes. It is hard for me to answer that question, 
and it is really a good topic for discussion. It might be a 
better thing to come out and visit anytime you wish. I am happy 
to have you and discuss that, or any member from this 
committee, and have you discuss that in person. But I will give 
you a brief answer.
    The issues that you raised, whether or not we are getting 
too much or a lot of information in a very complicated 
information environment is accurate. We are getting a lot of 
information, and some of it has a different kind of weight. 
Some of it from law enforcement channels or from the local, 
State, private sector is different than the information flow 
that we normally were used to working with in the past. We are 
coming to grips with that issue.
    If I may draw a picture in the air for you for just a 
moment, we are receiving foreign intelligence from the 
traditional sources. We are receiving law enforcement 
information from the law enforcement community. We are 
receiving domestic information from a whole variety of 
information sources, and we are also receiving information from 
other sources like academia, the Internet, that sort of thing. 
Bringing these four vectors together--foreign intelligence, law 
enforcement, domestic information, and other sources of 
information--together and associating them in the body of 
knowledge is something new. I do not believe it has ever been 
done before here in the United States.
    So we are having to design a system--and that, actually, in 
my view, is something I--maybe I should have said earlier.
    Part of this evolutionary process is good, in my view, 
because this is new and it is different. It is something that 
has to be carefully done to avoid impinging upon the civil 
rights and the constitutional rights of our citizenry while at 
the same time meeting the needs of our government to defend 
ourselves against people who will attack unwarned and 
unprotected citizens. There are many features and facets of 
this which I would have to tell you we have to defer to another 
time and place for discussion.
    But the last point I would like to make to you is the 
information itself at times does seem to be faulty or flawed. 
In fact, I have kind of a saying that some of my staff make fun 
of me about. The first 12 reports are always wrong. The last 
report, the 13th report, might be an approximation of truth. 
That is kind of the way this is working. Because we are 
bombarded by initial information of various kinds. Some of it 
is truly intelligence about intentions and activities, some of 
it about events that are happening and ongoing, much different 
kinds of information realms; and when the information comes to 
us, frankly, it is quite often flawed. Sometimes it might seem 
to us to be disinformation, especially with regard to 
intelligence. That is a judgment, experience, cross-checking, 
cross-cutting kind of issue; and it is not easy to do, 
especially in a very timely manner.
    Ms. Norton. I appreciate your candor. When you say that, 
essentially, one has to build a new system and you face that 
fact, it seems to me very important, given the new 
complications that have been now merged into intelligence 
activity.
    If the chairman will indulge me with a brief additional 
question, there is, of course, and continues to be concern that 
much of our intelligence from Iraq and places like that does 
not come from the ground. We have difficulties that we are 
trying now to overcome with language and the rest of it so that 
on-the-ground intelligence, which means some kind of 
infiltration into groups, is difficult abroad.
    Well, here in the United State we would expect to be 
further along with intelligence on the ground. I would like to 
ask you how much of your intelligence comes--I mean, in the 
United States, does a significant amount of your intelligence 
within the United States come from infiltration, on-the-ground 
intelligence that you are able to receive? I recognize that 
there are language problems even there, but clearly people in 
this country speak English. Is there yet a significant amount 
of intelligence that you can derive from on-the-ground here in 
the United States?
    General Hughes. I think I understand your question. I would 
say that that is a growing body of knowledge. It is not fully 
developed yet. It is not being reported fully yet, in many 
cases, but it is certainly the effort that we are putting forth 
to try to get information from, actually, the people we serve.
    I have addressed a number of forums now of State, local, 
major city, tribal and private sector groups and asked them to 
become part of our system; and to date all of them have been 
very happy to accept that challenge.
    Ms. Norton. I am sorry. What kind of groups did you say?
    General Hughes. From State--all different kinds of people, 
frankly--from local, tribal, major city, and private sector. So 
that is kind of the spectrum--.
    Ms. Norton. I am talking about, for example, we are told 
over and over again there are cells across the United States. 
Fine. Are we now part of those cells so we know what is going 
on in those cells?
    General Hughes. Yes, to the degree that we know about it.
    I mean, there may be some things that I don't know, but I 
would say that I am pretty well informed where it counts.
    Ms. Norton. That, of course, would be of great importance 
to us, given 9/11 and the fact that these men were on the 
ground all that time talking to everybody but, of course, with 
no intelligence coming back to us.
    Thank you very much, Mr. Chairman.
    General Hughes. I don't want to leave with you the thought 
this is perfect. It is not. We need to work on it with great 
effort.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you Ms. Norton.
    General Hughes, I have known you for a number of years, 
especially in your previous occupation as Director of the 
Defense Intelligence Agency, and you have been before our 
Intelligence Committee many times. I understand why you were 
chosen to lead this newly created organization; and I have the 
greatest respect for your background, your abilities, and look 
forward to your leadership as you lead this from its inception 
to its ultimate and hopefully effective utilization of this new 
body.
    I did want to make sure that we get a firm commitment from 
you for an ultimate return to our committee for a classified 
session. We are not going to do that today simply because you 
have been very generous with your time. We have to be out of 
this room, and it would take an enormous amount of time to 
clear the room and make it right for a classified briefing.
    Getting back to some of the things that I wanted to sort of 
wrap up with, it is normal in the analysis function of 
intelligence for people to disagree, because it is literally a 
form of art. It is not a science. People tend to expect that 
intelligence coming to us, raw intelligence, should lead a 
course of one and only one conclusion. Sometimes that works; 
sometimes that doesn't work. So a disagreement between educated 
individuals, knowledgeable people about the meaning of raw 
intelligence and sometimes disparate pieces of evidence can 
lead to differing conclusions, differing estimates. That is, of 
course, the part of the intelligence community that is one of 
art rather than science; and I am sure that you understand 
that.
    With regard to your clearance and being where you are, as I 
said, your previous life as the Director of the Defense 
Intelligence Agency, you are the right person at the right time 
for the right job. If someone else were sitting in your chair 
without your experience, without your background, they would 
have to go through a clearance and security process even though 
they were the Assistant Secretary for Information Analysis 
under the Department of Homeland Security. If they had not 
previously acquired a classified background check, they would 
have to go through that process.
    So to say simply that you and your previous military 
experience were immaterial to the process is wrong. I mean, the 
reason you are in the position you are in is to expedite the 
ability for the Department that you have to function 
effectively. So I wanted to bring those out.
    I again want to thank not just all the members of the 
committee who have participated today but, most importantly, I 
wanted to thank you, General Hughes. I don't know if I should 
call you Secretary Hughes or General Hughes. You are very well 
respected in your position, but I did want to thank you for 
your candid assessment today.
    We will have some questions that will be submitted to you. 
We would appreciate your responding to them.
    The record will be held open for 10 days; and with your 
commitment, as I said earlier, to return for a classified 
briefing at which time we can get into some finer granularity 
on some of these intelligence issues, that would be great. Just 
to get your commitment on the record, General Hughes, if you 
could respond to that.
    General Hughes. Mr. Chairman, I will certainly come before 
this committee anytime you desire for any reason. You can rest 
assured of that.
    I would just like to say that I share a very positive 
view--I mean, my experience with you has just been great over 
these years and with some of the staff here. I hope you 
appreciate, too, this personal relationship between a person 
like me and some of the members here. It is a wonderful thing. 
I am looking forward to serving the country with you, sir.
    Mr. Gibbons. Thank you, General; and we, too, are looking 
forward to your service again. It is always a pleasure to have 
you before this committee.
    With that, since we have kept you here the requisite time, 
which has been 2 hours--and we know that you want to stay 
longer, but we are going to let you go--this subcommittee 
hearing is closed.
    [Whereupon, at 12:32 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                   Questions Submitted for the Record

 Questions for the Record From The Hon. Jim Turner for General Patrick 
                                 Hughes

Issue #1
    During the hearing, when you were asked whether you have immediate 
access to relevant threat information from the Intelligence Community, 
you responded:
        ``My view to the answer is yes, I do, although, sometimes I 
        have to work hard to get it. It would be better. . .that I 
        don't have to reach out quite as much or to intercede on 
        occasion and gain information.''Later in the hearing, you 
        noted:
        ``. . .there are shades of autonomy or automatic mechanisms 
        here. Sometimes I have to work a little harder to get that 
        information, depending upon the nature of the information 
        source.'' You confirmed the point again stating that ``At times 
        I have certainly been frustrated by it. . .I will have to tell 
        you that it is very much a concern of mine.''
    The fact that you are able to secure certain information because of 
your ``old war horse'' status is reassuring on the one hand but 
troubling in other respects. As you know, the Homeland Security Act 
requires that ``Except as otherwise directed by the President, the 
Secretary [ Homeland Security) shall have such access as the Secretary 
considers necessary to all information, including reports, assessments, 
analyses, and unevaluated intelligence relating to threats of terrorism 
against the United States. . .''.
    Thus, I would appreciate hearing from you what information sharing 
mechanisms you believe ought to be in place right now to ensure that 
all relevant threat information is delivered to the IA Office, 
regardless of an Assistant Secretary's prior employment history 
handling these issues or ability to secure information from past 
colleagues still working in the Intelligence Community.

    My questions are as follows:
(1) What intelligence information is immediately accessible to the IA 
Office?
(2) What intelligence information is accessible to the IA Office only 
through TTIC?
(3) What intelligence information is accessible to the IA Office by 
request?
(4) Can you provide examples of intelligence information that was 
accessible only through your own direct and personal efforts by the 
Assistant Secretary?
(5) What steps ought to be taken to improve the intelligence 
information sharing process so that the IA Office Assistant Secretary 
is no longer ``frustrated'' by having to ``work hard'' to receive all 
related threat information, regardless of the ``nature of the 
information source''?

Issue #2
    I understand that the IA Office's ability to access information 
from law enforcement agencies and the intelligence community depends, 
in part, on the Homeland Security Information Sharing Memorandum of 
Understanding which was signed on March 4, 2003 by Attorney General 
Jolm Ashcroft, CIA Director George Tenet, and DHS Secretary Ridge. My 
great concern, of course, is that the most sensitive intelligence 
collected by the U.S. government, which I believe is more likely to 
provide you timely and useful information on terrorist motivations, 
strategy and actions, is too closely held and not always being 
disseminated to you and your colleagues serving at the Department of 
Homeland Security.
    There is an element of arbitrariness, I would submit, about what 
information is shared with the IA Office and what is excluded from your 
review. Any light that you could cast on this subject, such as the 
basis under which sensitive raw and finished intelligence is 
disseminated to the Terrorist Threat Integration Center (TTIC) and the 
IA Office, would be helpful in my understanding whether legislative 
action could improve the process and ought to be pursued.

    Specifically, my questions are as follows:
(1) Does it make sense for you to be briefed on covert action programs 
and terrorism--related DoD Special Access Programs so that you can 
determine whether information derived from those activities are 
relevant to securing the homeland?
(2) Should you have authority to review any other Intelligence 
Community compartmented programs to determine, on an independent basis, 
what should be shared with Secretary Ridge?
(3) Are there aspects to the MOU that require expansion or updating?
(4) Does the MOU give the IA Office sufficient leverage to secure 
intelligence or law enforcement information that is highly classified?
(5) Who is the official responsible within the Intelligence Community 
for deciding what intelligence threat information is shared with TTIC 
and the IA Office, and how does the process unfold for making those 
decisions?

Issue #3
        I concurred with your testimony about where TTIC ultimately 
        resides.
        ``My view. . .is that at some point we need to consider the 
        Terrorist Threat Integration Center coming under a different 
        kind of management structure, perhaps under DHS, perhaps under 
        an association of structures of some kind . . .''.
    Further, you noted:
        I do think, and I personally think the Director of Central 
        Intelligence would agree with this, at some point in time the 
        placement of the organization and its roles, missions and 
        functions with regard to central authority needs to be 
        reconsidered.''
    I am persuaded, too, that TTIC should be moved under the DHS 
umbrella in order to improve and refine overall intelligence sharing 
and am puzzled why, if you believe the DCI would view such action 
favorably, there is not more active consideration of this matter within 
the Administration.
    Recognizing that DHS is a newly created organization and that 
bureaucratic obstacles continue to affect the Department's overall 
development, I would strongly urge you to press this issue with your 
senior colleagues within the Intelligence Community. I believe TTIC's 
separate operations from DHS hinders the level of connectivity 
necessary to allow the government to effectively, and on a real-time 
basis, integrate intelligence and disseminate threat analysis to our 
local, community and state responders.

    My question is as follows:
        (1) Would the connectivity between the DHS and TTIC be improved 
        if TTIC were moved to the Department? Short of moving TTIC, 
        what other steps should be taken to improve connectivity 
        between the two organizations?

Issue #4
    I would welcome continuing updates from your staff to mine about 
the IA Office's efforts to hire qualified personnel as quickly and 
efficiently as possible. I share your substantial concern about 
administrative delays inherent in the security clearance process and am 
prepared to do everything I can to improve the current system. Your 
testimony that the ``staffing level is not yet 50 percent of our hope'' 
two and a half years after 9/11 leaves me discouraged and wondering why 
DFIS is unable to expedite the hiring process to ensure that we have 
sufficient intelligence and policy personnel onboard to help prevent 
terrorists from striking our homeland all over again.

    Specifically, my questions are as follows:
(1) How many Full Time Equivalent (FTE5) employees currently work in 
the IA Office?
(2) How many FTE slots have been authorized for FY 2004?
(3) How many FTE slots have been filled as of April 1, 2004?
(4) How many individuals are ready to be hired once they obtain 
security clearances?
(5) Besides security clearance issues, what are the other key 
administrative issues delaying the full staffing of the IA office?

Issue #5
    It would be useful to better understand the different kinds of 
analysis being conducted by your office on a daily basis. A February 
2004 DHS Office of Inspector General Report (Survey of IAIP 
Directorate--OIG-04-13) notes that intelligence information is 
``analyzed and processed into a usable format for distribution.'' The 
only documents that we receive directly from the IA Office are the 
occasional threat warnings distributed to local law enforcement. In 
furtherance of our oversight responsibilities, I would like to be 
provided example copies of bulletins, threat analysis assessments, 
competitive analysis documents, warnings and any other formats being 
used to inform relevant partners both internal and external to DHS in 
your return reply.
    Moreover, I would like to receive an explanation regarding the 
primary means of disseminating your classified and unclassified 
analytic findings to entities within DHS and other federal, state, 
local, and private sector partners. The OJG report notes ``the lack of 
an agreed upon Information Technology (IT) infrastructure to 
communicate with these partners inhibits the exchange of information.'' 
That being the case, a key concern I have is how we ensure that 
existing IT weaknesses are not the reason that we fail to detect 
another attack against the homeland.

Issue #6
    Since the IAIP Chief of Staff is responsible for managing the 
Competitive Analysis and Evaluation Office (CAEO), I would like to hear 
your views regarding why strategic red cell sessions and red teaming 
does not fall under the purview of the IA Office. The bulk of 
intelligence analysis is being conducted by your qualified staff, and I 
am not convinced that the small number of full time equivalent 
employees in CAEO (10 FTEs were authorized in this office in FY03) is 
sufficient to accomplish this critical task. More generally, I am 
concerned about the IA Office, and the Directorate as a whole, relying 
too heavily on detailees and outside contractors instead of Full Time 
Equivalent (FTEs) personnel, and would seek your views on the optimal 
mix of workers to carry out the threat analysis mission.

    My specific questions, then, are as follows:
(1) How many detailees, and from which other agencies, does the IA 
Office employ? How many outside contractor employees work in the IA 
office?
(2)What role do you have in overseeing red cell sessions and red 
teaming, if any?
(3)And should the functions of the CAEO fall under the jurisdiction of 
your office?
    In closing, let me thank you again for your testimony last month. I 
look forward to learning more about your efforts to build an excellent 
foundation for the IA Office.

                                 <all>

</pre></body></html>
